       ADVISORY REPORT

     COSTS CLAIMED BY THE
      COMMONWEALTH OF
      PENNSYLVANIA GAME
 COMMISSION, UNDER FEDERAL
 AID GRANTS FROM THE U.S. FISH
     AND WILDLIFE SERVICE
        FROM JULY 1, 1996
     THROUGH JUNE 30, 1998




DECEMBER 2002   Report No. 2003-E-0006
                                                                 X-GR-FWS-0010-2003

            United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                 Washington, D.C. 20240



                                                                     December 20, 2002

                            ADVISORY REPORT

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the Commonwealth of
           Pennsylvania Game Commission, under Federal Aid Grants from the U.S.
           Fish and Wildlife Service from July 1, 1996 through June 30, 1998
           (No. 2003-E-0006)

                                    Introduction
       This report presents the results of our performance of procedures to review
another audit agency’s work related to costs claimed by the Commonwealth of
Pennsylvania Game Commission (Commission) under Federal Aid grants from the U.S.
Fish and Wildlife Service (FWS) for the period July 1, 1996 through June 30, 1998
(Commonwealth fiscal years 1997 and 1998).

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C 777), (the Acts),
authorize FWS to provide Federal assistance grants to the states to enhance their sport
fish and wildlife programs. The Acts provide for FWS to reimburse the states up to
75 percent of all eligible costs incurred under the grants. The Acts specify that state
hunting and fishing license revenues cannot be used for any purpose other than the
administration of the state’s fish and game agencies. In addition, FWS also provides
grants to the states under the Clean Vessel Act and the Endangered Species Act.

        In February 1999, another audit agency initiated an audit of Federal Aid program
grants awarded by FWS to the Commission for fiscal years 1997 and 1998. The scope of
the audit work, as stated in its announcement letter to the Commission, was to evaluate
(1) the adequacy of the Commission’s accounting system and related internal controls;
(2) the accuracy and eligibility of the direct and indirect costs claimed by the
Commission under the Federal Aid grant agreements with FWS; (3) the adequacy and
reliability of the Commission’s hunting license fees collection and disbursement process;
and (4) the adequacy of the Commission’s purchasing system and related internal
controls. The audit was also to include an analysis of other issues considered to be
sensitive and/or significant to FWS. The audit work at the Commission covered claims
totaling approximately $26.3 million on FWS grants that were open during the
Commission’s fiscal years ended June 30, 1997 and 1998 (see Appendix). The audit
agency’s agreement with FWS expired before issuance of a draft report to the
Commission.

        From 1996 through September 2001, the audit agency conducted audits of Federal
Aid grants under a reimbursable agreement with FWS. The FWS did not renew or extend
its agreement with the audit agency and at the time of expiration, final audit reports on
several uncompleted audits had not been issued and the audits were in various stages of
the audit and reporting processes. The audit agency indicated in a September 25, 2001
memorandum that its supervisor and management had not reviewed the working papers
for the Pennsylvania audit to ensure that (1) sufficient, competent and relevant evidence
was obtained, (2) evidential matter contained in the working papers adequately supported
the audit findings in the report, and (3) sound auditing techniques and judgment were
used throughout the audit.

        On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which
FWS requested the OIG to (1) review the audit work performed by the audit agency
including its working papers, summaries and draft reports for these audits and (2) issue
reports on the findings that were supported by the working papers. Accordingly, our
review was limited to performing the procedures set forth in the Agreement and our
conclusions presented in the report are limited to the findings substantiated by the
working papers. We did not perform any additional audit work of the grantee’s records,
and the limited work performed under these procedures does not constitute an audit by
the OIG in accordance with Generally Accepted Government Auditing Standards.

                                 Results of Review

        The audit agency’s working papers concluded that the Commission’s accounting
system and related internal controls in effect during the Commonwealth’s fiscal years
1997 and 1998 were adequate for accumulating and reporting costs under Federal Aid
grants. In addition, the Commission’s other systems and related internal controls for
labor, purchasing, grant compliance, letter of credit drawdowns, and asset management
were considered adequate for Federal Aid participation. The working papers also
identified two management issues that the Commission and the FWS should address as
follows:




                                            2
A. License Certification

        The Code of Federal Regulations (50 CFR 80.10) requires a state to certify the
accuracy of the reported number of persons holding paid hunting licenses each year. The
number of license holders is one factor used by FWS to determine Federal Aid
apportionments for Wildlife Restoration grants. Part 80.10(c)(1) states that trapping
licenses are not eligible for inclusion in the license count. The working papers indicated
that the Commission did not maintain records on how many licenses were issued for
taking fur bearing animals by (1) hunting (allowable) and (2) trapping (unallowable). As
a result, the state reported the combined total number of “furtaker” licenses for 1997
(477) and 1998 (501).We suggest that the Commission establish procedures to ensure that
furtaking trapping license holders are not included in the report.

B. Financial Reporting

        The Commission did not comply with the provision of 43 CFR 12.81(b) (4) that
requires the grantee to submit its annual Financial Status Report within 90 days after the
expiration or termination of grant support. The working papers indicated that the
Commission submitted its Financial Status Reports for fiscal years 1997 and 1998
approximately 235 and 149 days late, respectively. Although the regulation allows for an
extension of the due date if a justified request is made by the grantee to the Federal
agency, the working papers did not include any evidence that the Commission made such
a request or that an extension was granted. In the future, the Commission should request
an extension if it is unable to submit the Financial Status Report within 90 days.

        Since the report does not contain any formal recommendations, a response to this
report is not necessary. If you have any questions regarding this report, please contact
Mr. Gary Dail, Federal Assistance Audit Coordinator, at (703) 487-8011.

        This advisory report is intended solely for the use of grant officials of the U.S.
Fish and Wildlife Service, and is not intended for, and should not be used by, anyone
who is not cognizant of the procedures that were applied and who agreed to the
sufficiency of those procedures.

cc: Regional Director, Region 5
     U.S. Fish and Wildlife Service




                                              3
                                                                 APPENDIX


                COMMONWEALTH OF PENNSYLVANIA
                        GAME COMMISSION
            FINANCIAL SCHEDULE OF REVIEW COVERAGE
          STATE FISCAL YEARS ENDING JUNE 30, 1997 AND 1998


   GRANT       GRANT        AMOUNT        QUESTIONED                 FEDERAL
  NUMBER      AMOUNT        CLAIMED          COST      BALANCE        SHARE
W-39-D-48     $13,000,000   $12,345,586       0        $12,345,586    $9,259,190
W-39-D-49      11,500,000    13,839,430       0         13,839,430     8,625,000
E-W-2-6           20,000        43,030        0            43,030        15,000
E-W-2-7           18,667        57,138        0            57,138        14,000
Total         $24,538,667   $26,285,184       0        $26,285,184   $17,913,190




                                          4
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
